IN THE SUPREME COURT OF THE UNITED STATES
No. 20-1143
DENISE A. BADGEROW, PETITIONER
v.
GREG WALTERS, ET AL.
CERTIFICATE OF SERVICE

I, Daniel L. Geyser, counsel for petitioner and a member of
the Bar of this Court, certify that, on April 16, 2021, three
copies of the Reply Brief for the Petitioner in the above-captioned
case were sent, by third-party commercial carrier for overnight
delivery and by electronic mail, to the following counsel:
Eve B. Masinter
Breazeale, Sachse & Wilson, L.L.P.
First Bank & Trust Tower
909 Poydras Street, Ste. 1500
New Orleans, LA 70112-4004
(504) 584-5468
eve.masinter@bswllp.com
I further certify that all parties required to be served have
been served.
Daniel L. Geyser

